No. ________________
IN THE
SUPREME COURT OF THE UNITED STATES
CORTEZ MAURICE CRUMBLE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION OF TIMELY FILING
Undersigned counsel for Petitioner Cortez Crumble submits this Declaration
of Timely Filing under Supreme Court Rule 29.2 and 28 U.S.C. § 1746.
1.

I, Douglas Micko, am an Assistant Federal Public Defender for the

District of Minnesota. In both the district court and court of appeals below, I was
appointed to represent Petitioner Cortez Crumble pursuant to the Criminal Justice
Act, 18 U.S.C. § 3006A. This is reflected in the Amended Motion for Leave to Proceed
In Forma Pauperis, submitted with this Declaration.
2.

Due to the ongoing COVID-19 pandemic, my office is presently operating

under a remote work schedule. Thus, a limited contingent of staff members is
available at our main office for purposes of sending and receiving paper mailings,
including court filings.

1

3.

On December 7, 2020, at my request, a member of my office’s staff sent

to this Court’s Office of the Clerk—through the United States Postal Service by first
class mail, postage prepaid—the following:
(a).

Motion for Leave to Proceed In Forma Pauperis;

(b).

Petition for Writ of Certiorari;

(c).

Proof of Service.

4.

On that same date, all the above items were also submitted to the Court

via the Court’s electronic filing system, along with an Appendix to the above Petition.
I received a confirmation of electronic filing on December 7, 2020.
5.

The Clerk of this Court has notified undersigned counsel that the

envelope containing the above items did not include a postmark specifying the date
of mailing, as contemplated under Rule 29.2. This was an inadvertent omission. I
certify the above items were sent to the Court’s Office of the Clerk for filing—through
the United States Postal Service by first class mail, postage prepaid—on December
7, 2020. I resubmit these items along with this Declaration.
6.

This Court has issued a March 19, 2020 order, extending the deadline

for filing a petition for certiorari “to 150 days from the date of the lower court
judgment.” The Eighth Circuit Court of Appeals issued its decision on July 13, 2020,
and hence the December 7, 2020 mail filing was timely under this Court’s rules.
7.

Also with this Declaration, I submit by mail a paper copy of the

Appendix to the Petition for Writ of Certiorari, which was inadvertently omitted from
the above mail filing of December 7, 2020.

2

8.

Finally, with this Declaration, I submit an Amended Motion for Leave

to Proceed In Forma Pauperis in accordance with the Court’s instructions.
I certify under penalty of perjury that the foregoing is true and correct.
Executed on January 21, 2021
/s/ Douglas L. Micko
_________________________________
Douglas L. Micko
Assistant Federal Public Defender
(Counsel for Petitioner)
U.S. Courthouse, Suite 107
300 South Fourth Street
Minneapolis, MN 55415
(612) 664-5858

3

